<html>
<title> - THE 2016 WATER RESOURCES DEVELOPMENT ACT--POLICIES AND PROJECTS</title>
<body><pre>[Senate Hearing 114-372]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 114-372

     THE 2016 WATER RESOURCES DEVELOPMENT ACT_POLICIES AND PROJECTS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-941 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 16, 2016
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...    13

                               WITNESSES

Darcy, Jo-Ellen United States Assistant Secretary of The Army....     5
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Inhofe...........................................    18
        Senator Whitehouse.......................................    21
        Senator Booker...........................................    22
Bostick, Thomas P., Lieutenant General, Commanding General and 
  Chief of Engineers.............................................    24
    Prepared statement...........................................    26
    Responses to additional questions from:
        Senator Inhofe...........................................    36
        Senator Booker...........................................    39
 
    THE 2016 WATER RESOURCES DEVELOPMENT ACT--POLICIES AND PROJECTS

                              ----------                              


                       WEDNESDAY, MARCH 16, 2016

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room 406, Dirksen Senate Office Building, Hon. James Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Boxer, Vitter, Barrasso, Capito, 
Boozman, Wicker, Fischer, Rounds, Sullivan, Carper, Cardin, 
Whitehouse, Merkley, and Gillibrand.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. All right, this meeting will come to order. 
Just before any of our people have to leave, let me just share, 
this is a big deal. This is the ultimate looking the gift horse 
in the mouth; when we are short of resources in the Corps and 
there are people willing to do things at their own expense, and 
we drag it out and make it difficult. So let me say that in a 
longer form.
    This is our second hearing on the 2016 WRDA. At our 
February 10th hearing we heard about the importance of 
rebuilding America's crumbling waterways and flood control 
infrastructure, and the national economic benefits that this 
infrastructure supports.
    Today we will hear from the Assistant Secretary of the 
Army, Jo-Ellen Darcy, and the Chief of Engineers, Lieutenant 
General Bostick, about new water resources projects to improve 
the infrastructure and the Corps' policies that can help or 
hinder the development of the project benefits.
    As I mentioned at our February 10th hearing, we are back on 
schedule to pass a WRDA bill every 2 years. This allows 
Congress to help meet the demands of navigation, flood control, 
ecosystems and restoration projects around the Country. Since 
we passed the last WRDA bill, that was June 2014, the Chief of 
Engineers has completed 22 reports recommending new water 
resources projects or changes to existing projects and has 
submitted these reports to Congress. We are considering these 
projects for the 2016 WRDA. All of them will provide 
significant benefits.
    In addition, under the new process established in WRDA 
2014, our States and local governments have submitted 172 
requests for studies that can lead to new water resources 
projects or modifications to existing projects. Of these, the 
Corps determined that 49 met the criteria set forth in WRDA. 
The Corps has sent those study requests to Congress and we are 
reviewing them.
    These projects and studies, if requested by a senator, will 
form the core of the 2016 WRDA, and the staff already has put 
together that base text. We also are reviewing the policy and 
programmatic issues that senators have brought to our 
attention.
    We all know that the Corps is operating under constrained 
budgets. At our February 10th hearing, we heard from witnesses, 
including Bob Portiss, my director of the Port of Catoosa in 
Oklahoma, that in some cases even the operational status of our 
navigable waterways can be at risk. That is why we want to make 
sure that you have the authority, you being the Corps, to 
accept money, goods and services from your non-Federal sponsors 
when they are willing to supplement your resources on a 
voluntary, non-reimbursable basis.
    It just blows my mind to think that is happening. We have 
such great things that we are behind on that we need to have 
done, and they are willing to come forth with their own 
resources to make this happen, and we say no or we stall them. 
That is the Government way.
    So I look forward to working with you, the Corps, and your 
staff to help draft language to achieve this goal.
    We also want to work with you and do more to encourage 
public-private partnerships. This can include private funded 
expansions of infrastructure to produce new and greater 
benefits, like expanding water supplies and energy production.
    If the private sector is willing to invest with the 
understanding that they can market what they create, in other 
words, if something doesn't exist today and they make it exist, 
they should be entitled to do that. Under the current process, 
it seems like the Corps looks for ways to say no, and I want to 
work with you guys to encourage partnerships where the Corps is 
looking for ways to say yes.
    As you know, there is a lot of interest in the water supply 
issues. The Corps does not own water, but it currently manages 
about 9.8 million acre feet of water that can be used for 
municipal water supply or irrigation purposes. In WRDA 2014, we 
required reports on how the Corps manages its reservoirs. One 
report was due last June and the other is due this coming June, 
but we haven't seen any results from that yet. We want to work 
with you, the Corps, to help optimize the use of water that is 
already available, while meeting existing project purposes and 
honoring existing water rights.
    Like many States, Oklahoma has suffered in previous years 
due to drought. Yet, we have unused water in 12 lakes in 
Oklahoma. I want to work with you to ensure that this unused 
water can be repurposed for use in Oklahoma. It is important to 
Oklahoma that WRDA is one of many tools to enact policies which 
plan for meeting water supply demands in the future.
    The main thing I want to address, though, is what I 
mentioned early on.
    With that, I recognize Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    This is our second hearing on the 2016 Water Resources 
Development Act or WRDA. At our February 10th hearing, we heard 
about the importance of rebuilding Americas's crumbling 
waterways and flood control infrastructure and the national 
economic benefits that this infrastructure supports.
    Today we will hear from the Assistant Secretary of the 
Army, Jo-Ellen Darcy, and the Chief of Engineers, Lt. General 
Bostick, about new water resources projects to improve that 
infrastructure and the water resources projects to improve that 
infrastructure and the Corps' policies that can help-or hinder-
the delivery of project benefits.
    As I mentioned at our February 10th hearing, we are back on 
schedule to pass a Water Resources Development Act every two 
years. This allows Congress to help meet the demands for 
navigation, flood control and ecosystem restoration projects 
around the country.
    Since we passed the last WRDA in June 2014, the Chief of 
Engineers has completed 22 reports recommending new water 
resources projects or changes to existing projects and has 
submitted these reports to Congress. We are considering these 
projects for the 2016 WRDA. All of them will provide 
significant benefits.
    In addition, under the new process established in WRDA 
2014, our States and local Governments have submitted 172 
requests for studies that can lead to new water resources 
projects or modifications to existing projects. Of these, the 
Corps determined that 49 met the criteria set forth in WRDA. 
The Corps has sent those study requests to Congress and we are 
reviewing them.
    These projects and studies, if requested by a Senator, will 
form the core of the 2016 WRDA and the staff already has put 
together that base text. We also are reviewing the policy and 
programmatic issues that Senators have brought to our 
attention.
    We all know that the Corps is operating under constrained 
budgets.At our February 10th hearing we heard from witnesses, 
including Bo Portiss the Director of the Port of Catoosa, that 
in some cases even the operational status of our navigable 
waterways can be at risk. That is why we want to make sure that 
you have the authority of accept money, goods and services from 
your non-federal sponsors when they are willing to supplement 
your resources on a voluntary, non-reimbursable basis. I look 
forward to working with you and your staff to help craft 
language to achieve this goal.
    We also want to work with you to do more to encourage 
public private partnerships. This can include privately funded 
expansion of infrastructure to produce new and greater 
benefits, like expanding water supplies or energy production.
    The private sector is willing to invest, with the 
understanding that they can market what they create. Under the 
current process it seems like the Corps look for ways to say 
``no.'' I want to work with you to encourage partnerships where 
the Corps is looking for ways to say ``yes.''
    As you know there is a lot of interest in water supply 
issues. The Corps does not own water, but it currently manages 
about 9.8 million acre feet of water that can be used for 
municipal water supply or irrigation purposes. In WRDA 2014, we 
required reports on how the Corps manages its reservoirs. One 
report was due last June and the other is due this June, but we 
have not seen any progress yet.
    we want to work with you to help optimize the use of water 
that is already available, while meeting existing project 
purposes and honoring existing water rights. Like many States, 
Oklahoma has suffered in previous years due to drought. Yet, we 
have unused water in 12 lakes in Oklahoma. I want to work with 
you to ensure that this unused water can be repurposed for use 
in Oklahoma. It is important to Oklahoma that WRDA is one of 
many tools to enact policies which plan for meeting water 
supply demands in the future.
    Senator Boxer and I are committed to working together to 
find solutions where we can. That is why I am confident that we 
move a bill through committee this Spring and pass a WRDA in 
2016.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Senator Inhofe.
    I am very pleased to see Secretary Darcy here and Chief 
Bostick, and I just want to make a point. With the Country in a 
very contentious place and so much dividing us, this is an area 
this Committee can restore some hope and faith that we can work 
together. We proved it working together on the highway bill, we 
proved it before on WRDA bills, and I just want to say to my 
chairman how much I look forward to working with him and every 
member of this Committee on both sides on this particular bill; 
and there is nothing standing in our way.
    It is always easiest to do nothing, because there is always 
an excuse. But this Committee understands our responsibility, 
so I am very hopeful we can really have a strong WRDA bill.
    Now, the new WRDA bill will support critical projects 
around this Country. They include projects for needed flood 
damage reduction, coastal storm protection, port deepening, and 
ecosystem restoration projects. Every one of those categories 
means more jobs, better and cleaner environment; it means we 
are looking at the infrastructure and moving forward.
    And since our 2014 WRDA bill, which I was very proud to 
work with my colleague on, 22 chief's reports related to 
projects in 17 States have been completed. And I know we each 
care deeply about our own States and the Country, so I will 
mention a couple in my State, two longstanding California 
priorities, the Los Angeles River, and people don't know we 
have a Los Angeles River, and it can rage; and the South San 
Francisco Bay Shoreline projects. Those have been concluded.
    Also, the Salton Sea, which is proving to be a major 
challenge to us. I won't get into it today, but it is a body of 
water that was formed by basically agriculture, and it is a 
stopping off place for almost all the wildlife you can imagine 
coming through the Pacific Flyway. It is in great trouble and 
is drying, and as it dries the intensity of the smell goes all 
the way from the Salton Sea through Riverside County, San 
Bernardino and into Los Angeles. It is dangerous. We have to 
act on it and we have begun in this Committee to address it, 
and I am looking forward to addressing it again.
    Now, with all the droughts that we are suffering and the 
need to look at desal and the other things long-term because of 
climate change, we still have incredible flood problems that 
come from extreme weather. The Committee has been very helpful 
to us in our Sacramento area, which, as I have pointed out in 
the past, if there were to a Katrina-like event, it would make 
Katrina look nothing like we thought, it would make it look 
like that was really bad and terrible, but this is horrific. So 
we need to move.
    I will close with this. I want to thank my chairman and his 
staff for working so hard to address the Flint crisis. In a 
bipartisan way, he reached out to Republicans and Democrats, 
and we almost had it done. And I still don't understand why we 
couldn't get it done. I am not even going to go into it. A 
couple of members have serious problems.
    But we can't turn away, as we do the Water Resources 
Development Act, it seems to me, from this crisis that is 
facing us now. So I am hoping we can work together. I know 
Senator Cardin has some measures to look at what we can do to 
help avoid another Flint.
    I want to show you the picture of the crisis, what the 
pipes look from the corrosion; and there is just no reason. We 
have anti-corrosion methods here, so there have to be ways to 
address this so that we prevent the crisis and we prevent the 
horrible effects of lead, particularly in our children. And 
speaking of children, look at this beautiful picture of the 
children delivering drinking water to their communities. This 
should never ever, ever, ever happen again.
    So we have a chance. We never know, we can't control when 
we are born, where we are, but we are here and it is now; and 
we know about Flint and we know it is happening in Mississippi, 
we know we have issues in Baltimore with the drinking water in 
the fountains, we know we have issues in Ohio right now. It is 
just beginning. So I am hoping, Mr. Chairman, that working 
together with both sides wanting to solve a problem we can do 
it.
    Let me just add one quick thing. The President's hands were 
tied when the Governor of Michigan asked him to declare an 
emergency. He couldn't do it because the Stafford Act doesn't 
allow it, even though it does allow help for manmade disasters 
such as explosions or flooding that has to do with some 
negligence on a dam project, for example.
    So I wrote some legislation to allow the President, if 
asked by a Governor, to declare an emergency and move quicker, 
quicker, so you don't have these little kids having to deliver 
water, so we have the ability to respond. I hope my colleagues 
will help me with that bill. And there may be a way to 
reference it in WRDA because we can't do it directly in WRDA.
    But I am excited about what lies ahead for us. I think we 
can again prove, Mr. Chairman, that this Committee can start 
restoring the faith of the people in the process.
    Thank you.
    Senator Inhofe. Thank you, Senator Boxer. Move quicker. 
This is something we are going to try to get the Corps to do on 
a couple of areas.
    So, with that, we will start with Secretary Darcy.

STATEMENT OF JO-ELLEN DARCY, UNITED STATES ASSISTANT SECRETARY 
                          OF THE ARMY

    Ms. Darcy. Thank you, Chairman Inhofe and distinguished 
members of the Committee. Thank you for the opportunity to 
testify before you today to discuss the policy issues and 
projects that the Committee expects to address in a Water 
Resources Development Act for 2016.
    The President is committed to investing in a 21st century 
infrastructure for America, including its water infrastructure, 
in order to strengthen the Nation's economy and resilience, 
provide for public safety, and to restore the environment. We 
applaud the effort of passing a WRDA bill every 2 years.
    Over the past century, Federal, State, local, as well as 
Tribal governments have made enormous investments in new water 
infrastructure, including locks and dams, levees, and other 
improvements. However, we must also continue our dialog 
regarding responsible and sustainable ways to fund the 
operation and maintenance of our aging water infrastructure so 
that it can safely and reliably serve current, as well as 
future, generations.
    State, local, and Tribal governments are taking on greater 
roles in water resources investments. We look forward to 
discussing additional authorities that may be needed for 
innovative finance models and partnerships with the private 
sector, and to working with the Committee to remove barriers so 
that we can continue progress in addressing the Nation's needs.
    We also welcome any discussion regarding how we can 
sustainably support our inland waterway infrastructure over the 
medium-and the long-term, and look forward to working together 
with you on these solutions.
    Together with State, local, and Tribal communities, the 
Obama administration is working to develop and implement 
structural, as well as non-structural, approaches to water 
resources challenges to improve their resilience. The Federal 
Government needs to continue to provide technical, as well as 
planning, assistance to help prepare, adapt, as well as protect 
communities from the impacts of climate change.
    Recently, the Army submitted the 2016 Report to Congress on 
Future Water Resources Development in response to section 7001 
of WRRDA 2014. This annual report, Chief's Reports, and Post 
Authorization Change Reports will help inform the 
decisionmaking of this Committee on a collection of new 
projects that can be considered for WRDA 2016.
    Our written testimony briefly describes the 13 Chief's 
Reports that have completed executive branch review since WRRDA 
2014, five of which completed executive branch review 
subsequent to submission of our annual report on the 1st of 
February.
    Since 1996, the Corps of Engineers has developed and 
implemented an Indian Affairs program. We have Tribal liaisons 
at Corps headquarters and at all 38 districts and 8 division 
offices. We have trained over 1,500 Federal agency staff and 
Tribal consultation processes, as well as establishing a Tribal 
Center of Expertise at our district in Albuquerque.
    In recent years we have made significant progress working 
with the Columbia River Basin Tribes on salmon and habitat 
issues, with Puget Sound Tribes on flood risk management and 
habitat restoration, and with Tribes regarding the transfer of 
lands, over 30,000 of the Garrison Projects, to the Department 
of Interior in order to be held in trust for these Tribes.
    Something I wanted to bring to the attention of the 
Committee is that section 1002 of WRRDA 2014 repealed Section 
905(b) of WRDA 1986, thereby eliminating recognizance studies 
and reports as a basis for, as well as a precursor to, 
feasibility studies. By repealing recognizance studies, we have 
inadvertently handicapped our Tribal partnerships. Recognizance 
studies were an aid to Tribes who had limited resources, and I 
am glad that our staffs will work together to try to resolve 
this issue in the coming WRDA bill.
    Also regarding our collaboration with Tribes, I wanted to 
announce the opening of the Corps' fourth Veterans Curation Lab 
in Washington State on the Colville Reservation. The Corps' 
Veterans Curation Program was started in 2009 with support from 
the American Recovery and Reinvestment Act. The program offers 
veterans the opportunity to learn tangible skills and gain 
experience by rehabilitating and preserving federally owned or 
administered archeological collections found at Corps projects. 
This program's unique training for future employment has meant 
that 90 percent of the more than 250 graduates have gone on to 
find permanent employment or returned to universities and 
colleges to continue their education.
    Mr. Chairman, we look forward to working with you and 
appreciate the Committee's support for the Nation's water 
resources to strengthen the foundation for economic growth for 
our communities and for our environment, and I am really 
looking forward to working with you on WRDA for 2016. Thank 
you.
    [The prepared statement of Ms. Darcy follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
       
    Senator Inhofe. Thank you, Secretary Darcy.
    General Bostick.

 STATEMENT OF LIEUTENANT GENERAL THOMAS P. BOSTICK, COMMANDING 
                 GENERAL AND CHIEF OF ENGINEERS

    General Bostick. Chairman Inhofe, Ranking Member Boxer, and 
distinguished members of the Committee, thank you for the 
opportunity to testify today with Secretary Darcy.
    I love the U.S. Army Corps of Engineers, and it has been my 
great honor to serve the Nation and the Army for nearly 38 
years. As this may be my last hearing as Chief of Engineers, I 
want to thank you for great support for the Civil Works 
program. This Committee in particular has been essential to the 
progress we have made over the years. Also want to thank 
Secretary Darcy for her unending leadership and passion for 
this work.
    The details about the Chief's Reports have been submitted 
to the Congress and are contained in my written statement. 
Today I would like to provide a brief update on the progress we 
have made with our four campaign goals and provide some of my 
perspectives on the very important water resources challenges 
that face our Nation.
    Our first goal is to support national security, and here we 
like to talk about the investment in Civil Works projects, not 
the costs. It is an investment in the work that we do and the 
risk reduction that these projects provide the American people. 
But it is also an investment in our people; and whether they 
serve in Iraq, Afghanistan, Pakistan, India, the United States, 
or in over 100 countries around the world, our people are 
making a difference.
    As part of Civil Works transformation, our second goal, we 
continue to improve and modernize the project planning process. 
Our planning modernization objective is to manage a risk-
informed planning program that delivers timely, cost-effective, 
and high-quality water resources investment recommendations. 
Since the inception of Civil Works transformation in 2008, 59 
Chief's Reports have been completed with recommendations for 
over $30 billion in water resources investments.
    During the first 4 years of Civil Works transformation, 19 
Chief's Reports were completed; in the last 4 years, the number 
is 40, more than doubling our progress. We are on schedule to 
complete another 12 reports by the end of the fiscal year. 
While we have made great progress, we can and must continue to 
improve.
    In our third campaign goal, reduce disaster risks, here the 
Corps continues to perform extremely well. We had historic 
floods in 2011, 2015, and continuing this year; and because the 
systems performed as designed, many Americans did not even 
realize the magnitude of these floods.
    In addition to the fact that no one died in these events, 
the return on investment is $45 for every $1 invested in the 
Mississippi Rivers and tributary system. Approximately $234 
billion of damages have been prevented.
    And despite all of these investments, our Nation's 
infrastructure is aging. The American Society of Civil 
Engineers rates the Nation's overall infrastructure at a D 
plus. The Corps is managing over $225 billion worth of that 
infrastructure, and funding across the Federal Government 
remains very challenging.
    In order to complete the construction projects that we are 
currently budgeting, we would require $19.7 billion additional. 
With construction funding at just over $1 billion per year, it 
would take nearly 20 years to complete our current work. As a 
Nation, we must continue to think creatively and innovatively 
about how we gain support beyond the Federal Government in the 
completion of these and future projects so that we can complete 
these projects in a more reasonable amount of time.
    Finally, our last goal is to prepare for tomorrow, and this 
is all about our people. In the nearly 4 years that I have been 
in command, I have traveled to all 43 districts and 9 divisions 
to see the vital work the Corps is doing at home and abroad. I 
remain convinced that we have an exceptionally skilled, 
talented, and loyal work force. I am very proud of the people 
who serve in the U.S. Army Corps of Engineers and our fellow 
teammates, including the military, civilian, local and Federal, 
and our contractors. As we have done for nearly 240 years, the 
U.S. Army Corps of Engineers remains focused on engineering 
solutions for the Nation's toughest challenges.
    Thank you for the opportunity today and I look forward to 
your questions.
    [The prepared statement of General Bostick follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
        
    Senator Inhofe. Well, thank you, General. We have worked 
together for a long time. Let me applaud you for your public 
service and your sticking in when times have really gone tough 
in the past. So I appreciate the contributions that you have 
made very much.
    General Bostick. Thank you.
    Senator Inhofe. We are still on the early bird rule, I 
advise members on the right and the left.
    I have always been supportive of the Corps' role in support 
our Nation's critical infrastructure. However, when people want 
to work for you, as I said in my opening statement, and they 
want to make a contribution, it seems like the Corps is looking 
for ways, as I said in my opening statement, to say no instead 
of yes. An example, even if a pipeline project is covered by a 
nationwide Section 10 permit and has an environmental 
assessment under NEPA, I understand that, and shows the project 
has no significant impact, it can still take months and months 
for the Corps to issue a separate Section 408.
    Now, I don't want you to answer and take too long now, but 
for the record I want you to answer why do we need a Section 10 
and then need a 408 permit in addition to that?
    Then, second, I have two things that came. This is a 
progress report. We have been waiting for this for months and 
months and months. This came from you today, the day that we 
are having a hearing. You are not granting these permits, you 
are saying, one of these is California, by the way, and one is 
Connecticut. The letter is to inform you that the Department of 
Army has initiated negotiations for accepting a contribution. 
Well, that still is not a permit, not accepting. Does it take 
us to hold a hearing in order to get this far?
    So I need have something. We will just do that for the 
record. Because what we are going to do, I want to hear the 
justification for the long period of time it takes. It might be 
that we will want to include some language, maybe not 
necessarily it could be freestanding, but language that says 
once you have a NEPA, once you have a Section 10, you have 2 
months in order to come out with your decision. So keep in mind 
we are really serious about this.
    Now, the regulatory issues also create barriers to public-
private partnerships. If a private company wants to work with 
you to increase water supplies or create energy that work 
involves a Corps project, I want you to look for solutions, not 
problems. If there is a legal barrier, I want to hear about it 
or this Committee wants to hear about it. So I would ask you 
would you do that? If you perceive, and it shouldn't take a 
matter of days to determine whether or not there is going to be 
a legal problem, that we can start addressing that?
    Ms. Darcy. Yes.
    Senator Inhofe. All right. I have an even bigger problem 
with your wetlands permitting program. In the Clean Water Act, 
Congress created an exemption for ordinary farming activity. 
Now, it made an exception to that that doesn't apply to new 
activities.
    Now, new activities, we are talking about things such as 
damming up a river. I mean, something that is a total major 
change from what they originally had. But we have cases where 
they wanted to change from a rice crop to a tomato crop. Well, 
you considered that a new activity and subjected them to what 
they would otherwise be exempt from on the Clean Water Act.
    To solve this problem, for 2 years in a row Congress has 
included language in your appropriation bills that says that 
you can't require a permit for ordinary farming activities; no 
exceptions, no exclusions. Now, instead of following the 
direction from Congress in the appropriation bill, you issued 
guidance telling your staff to ignore the appropriations 
language and continue to regulating any farming activity you 
claim is new.
    Now, will you commit to us now in this meeting that you 
will follow the direction of Congress, specifically the 
Appropriations Committee, and language that is coming your way 
and stop trying to regulate ordinary farming, whether you think 
it is a new activity or not?
    Ms. Darcy. Senator Inhofe, I would like to directly deal 
with the instances where we have tried to regulate something as 
new under this provision.
    Senator Inhofe. Well, now, I have already given you one, 
where they are trying to change a crop from rice to tomatoes, 
and you consider that to be a new activity. Do you think in 
that case that is what the intent was when they put the new 
exclusion in?
    Ms. Darcy. No, the exclusion was for normal farming 
practices that were currently operational. A crop change, and, 
again, I would like to look at if the crop change required a 
permit, why it required a permit because, as you say, from 
where you say, that doesn't look like a new activity; it is 
just a change in existing activity.
    Senator Inhofe. And I agree. I agree with that. But it was 
considered to be a new activity.
    Now, what I will do on that, I can cite a number of cases. 
There wouldn't be time to do that this morning, but I am going 
to send these to you and I would like to get a response. Now, I 
mentioned earlier that we have been waiting for a response for 
quite some time, and this always seems to be a problem, so I am 
going to ask you to address that right away because I would 
like to know.
    I will give you specific cases and ask why you would 
consider that to be a new activity, and should that be new 
under the language that describes the exemption in the Clean 
Water Act.
    Ms. Darcy. OK. We will try to provide you with a prompt 
reply.
    Senator Inhofe. Thank you.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    Secretary Darcy, in the past, WRDA bills were passed every 
couple of years, but since 2000 bills have only passed every 7 
years. You know, it was 2000, 2007, 2014. Has the time lag 
between WRDA bills affected the efficient and timely completion 
of projects?
    Ms. Darcy. Senator, I think not having a bill every 2 years 
has adversely impacted our ability to plan, our ability, as 
well as the ability of our local sponsors. If a local sponsor 
knows that every 2 years there is going to be an authorization 
bill, I think they can more easily plan for their investment, 
as well as a Federal Government investment. So I think if we 
are on a regular cycle for every 2 years, I think it is in the 
best interest not only in our program implementation, but also 
for the local sponsors who are responsible for funding these 
projects.
    Senator Boxer. I agree.
    General, it is great to see that 22 Chief's Reports have 
been completed since the passage of WRRDA 2014. I am happy to 
see Chief's Reports for two longstanding California priorities, 
Los Angeles River ecosystem restoration and the project for 
flood damage reduction and ecosystem restoration in South San 
Francisco Bay. There are three other projects due to have been 
completed: storm damage reduction along the Encinitas Solano 
Beach shoreline, reconstruction improvement of levees in West 
Sacramento, and the American River common features flood 
protection project, which will improve levees around 
Sacramento. Could you give me the status of these outstanding 
reports, please, when you expect them to be completed?
    General Bostick. I would expect to sign those at the end of 
April of this year, assuming there are no issues; and currently 
it looks like they are moving along pretty well.
    Senator Boxer. Well, I am very glad to hear that.
    Secretary Darcy, in WRRDA 2014, Congress established a new 
innovative finance mechanism known as WIFIA, Water 
Infrastructure Finance and Innovation. It is modeled after 
TIFIA, our program that is really leveraging funds in the 
transportation sector. WIFIA is a 5-year pilot program allowing 
the Corps and the EPA to provide direct loans and loan 
guarantees for construction of critical water infrastructure 
projects. The program requires little Federal investment 
because it greatly leverages every Federal dollar invested.
    This is kind of along the same line as my friend is 
discussing, the opportunity here to leverage a few Federal 
funds and bring in private funds and bring in other funds. EPA 
has begun implementation of its portion of the program and 
requested $20 million in the President's Fiscal Year 2017 
budget.
    Despite the focus in your testimony on the need for 
innovative financing, the Corps has not requested any funding 
for this program or issued any implementation guidance for the 
program. So what is the status of the Corps implementation of 
WIFIA and why is it the Corps is so far behind EPA in its 
implementation of the WIFIA program?
    Ms. Darcy. As you pointed out, EPA is currently beginning 
to implement the WIFIA program. We are still trying to develop 
it. The Corps of Engineers is not a granting agency; we are not 
a Federal credit assistance agency, as other agencies are, so 
it is a new way of doing business for us. We are a project-
funded agency; we have local sponsors for all of our projects, 
we don't do grants. So we are in the process of looking at how 
we could develop that and also looking at what EPA has done so 
far as to how we could either partner with them in a way to 
make the WIFIA program what I think the Congress has envisioned 
it to be.
    Senator Boxer. Well, let me just say when we work together 
to find an innovative way to move forward, we need you folks to 
be behind us, not to drag your feet. This is innovative. You 
should see what is going on on TIFIA. If you want some advice, 
call us, but don't drag your feet, because we don't have the 
funding that we would like to have. Senator Inhofe has been 
clear. So when you get a chance to leverage funding, this could 
be 60 to 1, as I understand it, right?
    Senator Inhofe. Sixty to one.
    Senator Boxer. Sixty to one. And if you are sitting on it 
because, gee, we never did it before, well, there is a lot of 
things I haven't done before. You have to step up. You have to 
step up, regardless, and get it going. So if you can't get this 
thing moving, please call us. We will be glad to help. We will 
put together a little task force of Senator Inhofe's staff and 
my staff and others to help you.
    Now, I talked about Salton Sea. This is an area that really 
upsets me because in WRDA 2007, to help battle the decline of 
the Sea, which I explained, if we let this go, you are going to 
have air quality problems not to be believed, all the way to 
LA, where we have millions and millions of people living. So in 
2007 I worked with colleagues to authorize the Salton Sea 
restoration program. Funding for the program was twice included 
in the President's budget request, but after Congress provided 
the Corps with its annual appropriations, funding was never 
allocated in the annual work plan of the Corps. Why has this 
program never received funding, despite it being a priority in 
the President's budget?
    Ms. Darcy. Senator, that study progress for Salton Sea, in 
our budgeting process in evaluating the possible outcomes from 
the studies, it has not competed well with the other studies 
that we have budgeted for.
    Senator Boxer. Well, why don't we talk about that? It is 
hard for me to get that. If this thing goes south on us, we 
have a crisis of wildlife, because they stop at the Pacific 
Flyway. It is over for that species of birds. If this thing 
goes south on us, we have a situation where the air quality 
will be so poisoned that you will destroy three counties; and 
we have given you the ability to move. It is very frustrating, 
Secretary.
    Now, further, in 2014, WRRDA 2014 included a provision, 
section 1011, that gives funding priority to ecosystem 
restoration projects that address and identify threat to public 
health, preserve ecosystems of national significance, preserve 
or restore habitats of importance for migratory birds. Now, the 
Salton Sea fits all three criteria. What else do you need to 
ensure that nationally significant ecosystems such as Salton 
Sea are prioritized? What else do I need to do here?
    And that's the last question.
    Ms. Darcy. Senator, I think that we probably need to take 
another look at the impacts and also the merits of the Salton 
Sea study. I know the State has developed a plan for Salton Sea 
and I think that given not only the provisions of WRRDA that 
you cite, but the possible adverse impacts, including adverse 
impacts to public health, I understand in that part of the 
State, we will take another look at it.
    Senator Boxer. Thank you. I appreciate it. I know it is so 
hard, but this is so many millions of people impacted.
    Senator Inhofe. All right, you are already two and a half 
minutes over.
    Senator Boxer. I know. Well, I won't say one more word.
    Senator Inhofe. We have several people here.
    Senator Boxer. I won't say one more word, I promise you.
    Senator Inhofe. Oh, good. All right.
    Senator Boxer. I just want to close by this. The President 
has put it in the budget; WRRDA, in a bipartisan way, mentions 
it, and I just am so frustrated. But thank you.
    Senator Inhofe. And this is when we are getting along.
    [Laughter.]
    Senator Boxer. We sure are.
    Senator Inhofe. OK, so there won't be any confusion on the 
Democrat side, the early bird is going to have Cardin, Carper, 
and Whitehouse; and on the Republican side Vitter, Fischer, 
Capito, Rounds, Wicker, Sullivan, and Boozman.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    And thanks to you both for being here and for your work. As 
you both know, a key priority of mine in Louisiana is the 
Morganza to the Gulf flood and hurricane protection project, 
which has been fully authorized in the last WRDA, has received 
a positive cost-benefit ratio, but has not gotten any 
meaningful attention from the Corps, and I continue to be very 
concerned about that.
    General, back in mid-2012 we met in my office and you made 
an absolute commitment to me that you all would sharpen your 
pencil and refine the cost of that project to bring it down 
significantly. The goal was at least 20 percent. And that would 
be completed soon after the Chief's Report, which arrived in 
mid-2013. We haven't received any refined cost to bring that 
cost down so we can more effectively move forward, and that is 
4 years, almost 4 years since that face-to-face conversation 
and commitment. Where is that? Where is that refined plan and 
lowered cost?
    General Bostick. I don't have the refined plan on that. 
What we did do is we worked with the local stakeholders, folks 
that thought they could bring the cost down using different 
local methods. We considered those. We also re-looked at our 
analysis, and we don't have a lower number at this time.
    Senator Vitter. I don't want to cut you off, General, but I 
want to get the point. You do remember that conversation?
    General Bostick. I do remember the conversation.
    Senator Vitter. Do you remember the commitment?
    General Bostick. I remember the commitment.
    Senator Vitter. And you thought it was definitely possible 
to sharpen your pencil, lower the cost with others' help, and 
the goal was at least 20 percent. Do you remember that?
    General Bostick. I don't remember the exact figure. I do 
remember that we had a conversation and I said that we would 
re-look into everything that we could to see if there was a 
possibility to bring the cost down, because we thought at the 
price it was coming in it was not going to be fundable.
    Senator Vitter. You all have never come back to me with 
that analysis. Has that analysis been done?
    General Bostick. I will come back to you with what we have 
done. I do owe you that.
    Senator Vitter. OK. But you are saying you looked at it and 
you couldn't lower it a penny?
    General Bostick. I am not saying that. I am saying I don't 
know if it was lowered. I don't have those details with me at 
this time, but I will go back and find out exactly what we did, 
what steps we took, and where we ended up and provide that.
    Senator Vitter. Well, General, my impression is you all 
walked away from that and didn't make a meaningful effort to 
sharpen your pencil, lower the cost, as promised. When can I 
expect a detailed response about how we are going to do that?
    General Bostick. We did make a concerted effort to try to 
bring the price down. I can't tell you exactly when, but it 
will be before I depart.
    Senator Vitter. OK. Well, I would like to have a personal 
one-on-one meeting to walk through all of the different 
proposals that you received to lower the price and where we are 
on that.
    General Bostick. And we will do that.
    Senator Vitter. Thank you.
    Now, consistent with that foot-dragging, the Administration 
put no budget request in for this crucial project. This is to 
protect a major part and heavily populated part of South 
Louisiana. This is a project that has $700 million of 
commitments in the next 5 years from the State and locals, got 
a positive cost-benefit analysis, fully authorized in the last 
WRDA.
    Madam Secretary, why was nothing put forward to help match 
that $700 million from the State and locals?
    Ms. Darcy. When considering all of the projects that would 
be included in the President's budget, this was considered and 
was not selected as being one that could be included in this 
year's 2017 budget request.
    Senator Vitter. Well, I know that; I mean, I said that in 
the question. My question is given everything, including the 
State and local commitment and the cost-benefit, why that is 
so. I mean, this is a heavily populated area that is completely 
vulnerable.
    Ms. Darcy. I believe this would have been a new start in 
the 2017 budget, and we only included one new start in the 2017 
budget, and that was Mud Mountain Dam, which is a requirement 
of being able to comply with a biological opinion.
    Senator Vitter. So biology, namely, animals, trump people?
    Ms. Darcy. That is our responsibility, is to comply with 
the biological opinion.
    Senator Vitter. Well, just for the record, humans are 
animals too, so I hope we get equal footing in the future.
    Let me ask two things for the record, because my time is 
running out, or has run out.
    One is to re-ask the Chairman's question about the complete 
laborious 408 permit process and, in particular, why a decision 
was reversed regarding Larose to Golden Meadow having no 
significant impact. That decision was reversed. Now it is 
supposed to have a significant impact and that is delaying that 
permitting even further.
    And, second, lots of folks in the maritime industry are 
very concerned with the Corps' statement that the Brandon Road 
Lock and Dam in Joliet, Illinois could be closed for 30 days or 
more for emergency purposes. That would shut down major 
commerce in the whole heartland of the Country, and I would 
like clarification of what that means and what would be an 
emergency.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman.
    And welcome to the witnesses. In Rhode Island, the 
Providence River goes up right next to Providence. Years ago it 
was an industrial waterfront; now residential uses and 
recreational uses have taken over and they are very welcome.
    But residue of the industrial waterfront still remains out 
in the public trust areas of the Providence River. The Army 
Corps has taken the position that it will only clear things 
that fall within a prescribed commercial channel, which has no 
commercial traffic, it is now a recreational area, and will not 
help us with removing the hazards and obstacles to recreational 
navigation that exist because they aren't within this 
predefined commercial channel.
    So I would like to continue to work with you and see what 
we can do in this bill to make sure that you can provide help 
and support. There simply isn't commercial traffic there any 
longer. What there is are things like community boating, which 
brings kids from neighborhoods that ordinarily would never see 
the oceans and see the water, and takes them out sailing, and 
they are now sailing around in an area, obviously they go 
outside this commercial channel into areas where these old 
rotten industrial era pilings remain a hazard to them and to 
their navigation.
    So I look forward to working with you on that.
    Ms. Darcy. Yes, sir.
    Senator Whitehouse. Very good.
    The second thing I wanted to mention is that when we last 
did WRDA, everybody worked very hard here on putting 
transparency requirements in for the Army Corps. The obvious 
reason for that is that the Army Corps requires that local 
participants have money ready to pay their share; and having to 
hang on to that money, not knowing when it is going to be 
called on, creates a lot of difficulties and nuisance for local 
governments and for local sponsors.
    So that was in 2014. You got out the guidance for the 
transparency section just in February, a couple weeks ago, so 
in the years that went by between when we passed the 
reauthorization with the transparency provision and the weeks 
ago that you got out the transparency guidance, have you taken 
other intermediate steps to try to improve the transparency 
that concerned this Committee? Or lack of transparency that 
concerned this Committee, to be specific.
    Ms. Darcy. We have been, in our collaboration with our 
local sponsors, I think also part of the provision that was 
envisioned in the last WRDA bill was to have us be in 
cooperation or consultation with the other Federal agencies 
earlier in the process so that we could collaborate with them 
and have it be a transparent process so that the local sponsor 
would know, through the planning process, what was going on and 
what possible impacts or impediments there might be with other 
Federal regulations.
    So we have been doing that within our planning process and 
looking forward to how we are going to develop these in a more 
transparent as well as inclusive process, so that we don't come 
to the end of a study and find out that, oh, we should have 
talked to NIMS before now because there is going to be an 
issue. So we are trying to do that earlier so that we avoid 
that kind of thing.
    Senator Whitehouse. The last point that I want to raise I 
will ask you to take as a question for the record because I 
think it is going to take some research, but it is important 
enough to me that I wanted to ask the question live in the 
hearing, and that is that in the Army Corps' Fiscal Year 2017 
budget request there is a $1.214 billion flood and coastal 
storm damage reduction budget line. If you drill into that 
budget line, it appears that the amount requested for coastal 
projects is $10 million and the amount requested for inland 
projects is $1.204 billion, which would be more than 100 times 
as much.
    As a coastal State, and as one that is more likely to see 
more damage from sea level rise, warming seas, and all of that, 
I am concerned that there should be this discrepancy between 
coastal projects and inland projects. Now, maybe that is an 
accounting or terminological glitch of some kind, but I would 
like to get a full explanation of that discrepancy, and please 
feel free to take that as a question for the record, but an 
important one.
    Ms. Darcy. Right. And I think that once we do the drill-
down and look at it, maybe part of it is terminology, as 
opposed to actual money on the coast and money in the rivers 
comparison, so we will provide you with that.
    Senator Whitehouse. Great. Thank you.
    I would note for my colleagues from coastal States that it 
is only one of many areas in which funding appears to 
disproportionately go upland and leave our coastal States I 
guess the opposite of high and dry would not be the right 
metaphor to use, but certainly underfunded relevant to upland 
uses. Thank you.
    Senator Inhofe. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    And thank you, Secretary Darcy, for being here today. As 
you may know, Section 5104 of the 2007 WRDA authorized the 
Lower Platte River Watershed Restoration Project, and this 
project has national, State, and local significance as it 
encompasses the final 110 miles of the Platte River and it is a 
major tributary of the Missouri River. More importantly, the 
Lower Platte River Watershed serves as a critical drinking 
water source for Nebraska's largest and fastest growing 
metropolitan areas.
    It is my understanding that a comprehensive study would 
enable local authorities to apply a systems approach to 
restoring degraded river and floodplain habitats, and other 
critical environmental resources to provide immediate and 
sustainable benefits for this river system.
    In your Fiscal Year 2017 budget request you propose to 
complete investigations of 12 studies, at a cost of $4.9 
million. With these completions doesn't that free up the Corps 
to initiate some new starts for studies in Fiscal Year 2018 and 
will you consider studies for watershed restoration projects as 
you are deciding what studies to initiate?
    Ms. Darcy. For 2018? Yes, indeed.
    Senator Fischer. OK. That would be wonderful. And how is 
the Corps advancing watershed restoration planning in 
cooperation with local governments and also with States?
    Ms. Darcy. We are undertaking some watershed studies, as 
opposed to project-specific studies, and I would have to get 
back to you on which ones we are currently funding and which 
ones we are in the process of completing.
    Senator Fischer. OK, thank you. There is a new corrective 
floodplain mapping that is being done by FEMA, and it has 
placed the southern portion of Fremont, Nebraska, Village of 
Inglewood, and the Dodge County Industrial Park into the 100-
year floodplain. None of this area was in the 100-year 
floodplain before the remapping by FEMA, and the changes that 
FEMA has made to existing levee freeboard requirements dictates 
that these levee upgrades be completed to provide protection 
from flooding much of Fremont.
    This project has been converted to a Corps general 
investigation project and $425,000 has been budgeted to 
complete the general investigation study report by September 
30th of this year. However, it has come to my attention that 
last week the Corps informed local stakeholders that the study 
will be delayed until December 2017.
    Do you know the reason for the delay and what are the 
additional costs that are going to be associated with that 
delay?
    Ms. Darcy. I don't know the delay or what the additional 
costs are, unless General Bostick does, but, if not, we can 
find out for you.
    Senator Fischer. Thank you.
    General, do you happen to know?
    General Bostick. I do not know, but we can find that out 
fairly quickly.
    Senator Fischer. If you could get back to me on that, I 
would appreciate it. I would also hope that the Administration 
can assure us that timelines for these investigation studies 
are going to be fairly concrete so that we are able to look at 
projects and how they are budgeted also in the future. It 
really complicates the budgeting process when there is over a 
year difference in the time period.
    Ms. Darcy. One thing I might offer, Senator, is that the 
Corps began and then the Committee, back in 2014, during the 
WRRDA bill, instituted this three-by-three-by-three planning 
process for us, which means $3 million, 3 years to complete. So 
that helps the planning horizon for a local sponsor and the 
Federal Government as to what we are going to budget for in 
that 3-year process; and there is a waiver provision, but we 
are trying to stick by the three-by-three-by-three so everyone 
knows what is to be expected in a 3-year planning process.
    Senator Fischer. OK. But it will be helpful, as you know, 
these projects are very important for the health and safety of 
the citizens that live in that area, and we want to make sure 
that they can be completed and also completed with really an 
appropriate amount of resources being expended on them, and not 
see an increase because of delays.
    Also, Secretary Darcy, on September 30th of this last year, 
you testified before a subcommittee here, the Fisheries, Water, 
and Wildlife Subcommittee, on the Corps' participation in 
developing a new definition for waters of the U.S., and I would 
note that I submitted questions for the record and I have yet 
to receive a response to those questions. At the hearing, I 
asked you how the final rule defines a roadside ditch. We 
haven't heard from you. You replied that you were going to 
check. Did you check on that and do you possibly have a reply 
for me at the hearing today?
    Ms. Darcy. Senator, I believe we got the answers to the 
questions for the record to the Committee late, but was it 
yesterday? Yesterday.
    Senator Fischer. OK. I understand all of us are busy, but I 
would certainly hope we could get responses in a more timely 
manner, and not just before you are going to show up before the 
Committee for a hearing. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Fischer.
    I am going to ask unanimous consent that I put a letter in, 
because it does reference what we are talking about, WIFIA, 
from the American Chemistry Council concerning what is referred 
to as the Stabenow-Inhofe Amendment. Without objection.
    [The referenced information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Senator Inhofe. Senator Merkley.
    Senator Merkley. Well, thank you very much, Mr. Chairman.
    And thank you all for coming to testify. I wanted to start 
by noting how important dredging is and the maintenance of 
jetties to the coast of Oregon. Since I have been here in the 
Senate, I have been advocating for a set-aside for small port 
dredging. We have, for example, the Port of Bandon in Oregon, 
which has 300 substantial vessels each year, 23,000 volume-
related trips.
    So you have these small ports along the coast that have 
significant economies based on crab, shrimp, salmon, ground 
fish, sport fishing, whale watching, et cetera. I just wanted 
to raise that and encourage the Corps of Engineers to 
understand and maintain a commitment to keeping these economies 
functional through the jetties in good shape and the dredging 
on an ongoing basis.
    I don't know if there are any comments that you want to 
share about that.
    General Bostick. We also agree with the importance of these 
emerging harbors, and the Fiscal Year 2017 budget includes 10 
percent of the funding, about $95 million, for these small 
harbors.
    Senator Merkley. And I very much appreciate that. And I 
must say our small ports are now in much, much better shape 
than they were just a few years ago thanks to that set-aside 
for the small ports.
    I do a lot of town halls in Oregon, I think the count is 
now about 270. There is tremendous concern through the Columbia 
Gorge about the shipment of both oil cars that have explosive 
potential and also about coal, coal dust, so on and so forth. 
There are these various projects planned for being able to 
export coal overseas and these projects raise the prospect of 
unit trains that would run through our towns, obstruct one side 
of the town from the other on a regular basis, leave coal dust.
    People are also very, very concerned about the 
environmental footprint, at a time when we now understand that 
80 percent of the proven fossil fuels in the world, the 
reserves, have to stay in the ground if we are going to save 
this planet.
    So Senator Wyden and I wrote a letter, which I will 
resubmit for the record, with the consent of the Committee.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Merkley. Thank you very much.
    Saying that, when we look at the environmental review for a 
coal project, it has to take the full perspective into account: 
What is the impact of the dust on the communities? What is the 
impact of the trains splitting the community in half for long 
periods each day? What is the impact of burning this coal on 
our broader objectives to be stewards of the planet for our 
children and our grandchildren? And we were very disappointed 
that the Army Corps of Engineers basically said, we are not 
interested in those issues.
    Now we have gone through a period where the President has 
said we are going to suspend leases of our citizen-owned coal 
to study exactly this issue, exactly this issue that Senator 
Wyden and I were raising. Is the Corps rethinking the 
narrowness of its view of the world in light of the events of 
the last few years?
    General Bostick. I would say that, in general, we certainly 
take a broader perspective. I am not sure of the specifics 
about the examples that you raise, but when we work on any of 
these projects we are working with all the local stakeholders, 
taking in the interests of a wide variety of groups and trying 
to make the best decision in the interest of the locals and the 
government. So there is not a view that we are not interested 
or we are not concerned about these types of environmental 
issues.
    Senator Merkley. So I will just say in this case the Corps 
basically said the only thing we are interested in is the 
impact of putting pilings in the water. And I believe I can 
quote the Acting Chief of Regulatory Affairs said, the 
activities of concern to the public, such as rail traffic, 
shipping coal outside the United States, and burning of the 
coal are outside of our control and responsibility.
    We were asking for a programmatic environmental assessment 
to take this understanding this broader view of these impacts 
on the local communities and on the broader world, not just the 
impact of putting the pilings in the ground. I just would 
encourage continue to rethink this, because these projects have 
very profound impact both on the path of what is shipped in and 
the effect of what is shipped out.
    Thank you.
    Senator Inhofe. Thank you, Senator Merkley.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    First, let me just say to both of our witnesses thank you 
very much for your service. General Bostick, we most certainly 
appreciate the extended time that you have spent in service to 
our Country. We appreciate that. Thank you.
    Assistant Secretary Darcy, Section 4003 of the 2014 WRRDA 
bill authorized the Corps to coordinate with various Government 
agencies to create a soil moisture and snow pack monitoring 
network in the Upper Missouri River Basin and maintain high 
elevation snow pack monitoring sites. That was after the flood 
of 2011. However, in a 2015 report, the Government 
Accountability Office found that the Federal agencies have made 
very limited progress implementing the monitoring program.
    What is the status of the soil moisture and snow pack 
monitoring program? Do you know what that is? If you don't have 
it, I would ask for that to be returned on the record, please.
    Ms. Darcy. I am aware of that provision, but I don't know 
what the status of the report is, so I would like to be able to 
get back to you with that information.
    Senator Rounds. OK, fine. If it is as we have indicated 
here, which is not gone very far, would the Corps consider 
taking the role as the lead agency to implement the program?
    Ms. Darcy. Did you say the local?
    Senator Rounds. If it has not gone very far, if we are not 
getting any place, would the Corps consider taking the lead 
role in implementing the program?
    Ms. Darcy. I think we would definitely consider it.
    Senator Rounds. OK. In 2008, Secretary Darcy, you issued a 
real eState guidance policy, Letter No. 26. The directive 
required municipal and industrial water users from the Missouri 
River main steam reservoirs to acquire a water storage contract 
from the Corps prior to the Corps issuing an access easement 
for pumping water. The access easements are needed for all 
South Dakota water users of the Missouri River, to include 
municipal, industrial, and temporary use for short-term 
projects for which State permits had already been issued. The 
Corps' unwillingness to issue access easements affects South 
Dakotans' ability to manage the public's ability to use water 
from the Missouri River.
    Do you plan to continue denying access easements to South 
Dakotans seeking to use water from the Missouri River?
    Ms. Darcy. Senator, I think this is in response to granting 
easements. I think this happened in 2009. What we are currently 
doing is we are looking at the Flood Control Act, as well as 
the Water Supply Act to try to come up with, and this is within 
DOD review at the moment, to do a water supply rulemaking so 
that we can clarify what exactly the requirements are for 
either getting an easement or a contract for municipal 
industrial water supply at Corps of Engineers facilities.
    Senator Rounds. The Missouri River runs right to the middle 
of South Dakota. The city of Pierre sits on the Missouri River, 
below the Oahe Dam. Main stem system. They would like to be 
able to get some water out, pump it out so they can use it in 
irrigating the parks and so forth, and peer. We need access 
across Corps land to get to the water to do it. It is not a 
question of whether or not the water is available to them; it 
is a matter of getting access across Corps land. It is a Corps 
right-of-way. It seems to me that it is being a little bit 
obstinate not to be able to work with a municipality to get an 
easement just to get a pump in the water to get the water out 
that is below a dam; it is not even in part of the storage of 
the river.
    Ms. Darcy. Has the city of Pierre been denied an easement?
    Senator Rounds. Yes.
    Ms. Darcy. Then----
    Senator Rounds. Would you get back to me and let me know?
    Ms. Darcy. I was going to say I would definitely want to 
look into the details of that.
    Senator Rounds. I would appreciate that. Thank you.
    Assistant Secretary Darcy, in 2014 the WRRDA bill required 
the Corps to waive proposed water charges for contracted 
surplus water identified in surplus water reports. Can you tell 
me the status of the surplus water studies you have undertaken 
and what you believe will result from the studies?
    Ms. Darcy. Currently, I think of the five reservoirs on the 
Missouri we have had reallocation study reports that are 
currently at the headquarters. As I mentioned before in my 
response about the water supply rulemaking, we are hoping that 
the water supply rulemaking will clarify again what the 
contractual, as well as the financial responsibilities are for 
contracting with that water and what reallocations there are 
available in those reservoirs, because in order to reallocate, 
we need to make sure that the water there is available for 
other purposes, including municipal and industrial water 
supply.
    Senator Rounds. Is the plan to charge an administrative fee 
for storing the water to those individuals who would gain 
access to it?
    Ms. Darcy. In the rule that currently is underway is going 
to be put out for public review and comment, and the law says 
that there has to be a reasonable cost associated with that, 
and we are looking for public comment and what an 
interpretation of a reasonable cost would be over time.
    Senator Rounds. Thank you.
    Mr. Chairman, one last just to clarify. I indicated that 
the city of Pierre has been denied. I am not sure if they have 
been denied or they simply have not received a response, so I 
will clarify that. But I would really appreciate finding out 
why it is that tough to get that done.
    Ms. Darcy. OK.
    Senator Rounds. OK, thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Secretary Darcy, nice to see you. Everyone whose 
neighborhood, whose businesses have not been flooded by the 
Little Mill Creek in Northern Delaware this year, last year, 
they send their best and their thanks.
    General Bostick, very nice to see you. How many years of 
service?
    General Bostick. Thirty-eight, sir.
    Senator Carper. Thirty-eight. That is a pretty remarkable 
record. And on behalf of everyone in this Country who you have 
served for those years, continue to serve, I just want to thank 
you for an extraordinary life of service.
    I want to start off. You were very nice to spend some time 
on the phone with me earlier this week, and if I could, I just 
want to go back to this commission, one of these basin 
commissions around the Country. You know better than me our 
Delaware River Basin Commission is one; another is the 
InterState Commission of the Potomac River Basin; a third is 
the Susquehanna River Basin Commission. Despite a reiteration 
and a clarification of congressional intent in WRRDA I think in 
2014, the Army Corps of Engineers did not provide funding, as 
you know, in either 2015 or in 2016. In fact, the Delaware 
River Basin Commission in our part of the world has not 
received funding, I think, for 19 of the last 20 years.
    Delaware is the only State that fully funds its share into 
the commission. Pennsylvania, I think, New York, and New Jersey 
fund some, but not all.
    Just think back on our conversation. Could you just again 
tell me the status of what we think are fairly clear 
congressional directives for the Army Corps to budget and to 
allocate funds to the three river basin commissions and why it 
has not happened, and what we might be able to do about it?
    Ms. Darcy. Senator, within our budget we have a program 
that is called Planning Assistance to States, and within that 
program it is envisioned that the activities of the river 
commissions would qualify for that funding. However, activities 
of the commission would need to be cost shared from 50 percent 
of the Federal input as well as 50 percent from the river 
commission. So if we can identify activities specific to the 
operation of the commission, we would be able to use that 
funding source if, again, we could find the cost share 50 
percent from the commission itself.
    Senator Carper. OK. About how much money would we be 
talking about, do you know?
    Ms. Darcy. I don't know. The entire line item for Planning 
Assistance to States is $2.3 million.
    Senator Carper. OK, thank you.
    As you know, the 2014 version of WRRDA further requires 
that if the secretary does not allocate funds for a given year, 
the secretary shall submit a notice explaining, describing why 
funds were not allocated, and, to my knowledge, no report has 
been provided. I would just ask if you could tell us why that 
report was not provided to Congress.
    Ms. Darcy. The report wasn't provided because I think it is 
viewed that within this Planning Assistance to States funding 
stream that there would be the ability to fund some of the 
river commissions.
    Senator Carper. All right, thank you.
    We talked a bit about the most recent storm that has come 
up the Atlantic Coast. I described we always compare to a storm 
that occurred in 1962. I was not in Delaware at the time, I was 
a kid I think somewhere, but whenever we talk about damages to 
the beaches in Maryland, Delaware, north, they talk about the 
storm of 1962.
    We had a bad storm a couple of weeks ago, about a month or 
two ago, a lot of snow in many places, including here, but we 
had huge winds. We had sustained winds of 50 knots and up to as 
much as 60, 70 knots, which is a nor'easter. It did a whole lot 
of damage. The good news is it did not damage, did not destroy 
our beach communities from Fenwick Island up to Lewes. Rehoboth 
Beach was saved, Dewey, Bethany, because of the work by the 
Army Corps of Engineers.
    I should just stop here and say we value very deeply our 
relationship with the Army Corps of Engineers, Region 3, 
Philadelphia, and also in Baltimore. They are wonderful people 
there, civilian and military. We love working with them. They 
are so responsive and thoughtful, and very creative, very 
creative. So we are grateful for that.
    But we are in a situation where we need to restore the 
dunes that have protected and saved these beach communities, 
including one that you have spent some time in, as have I, in 
our lives. But I just want to ask do you think it might be 
possible to direct a portion of the remaining emergency funds 
from Superstorm Sandy disaster appropriations legislation 
toward the Corps' flood control and coastal emergency account 
perhaps through an amendment to WRDA later this spring?
    Ms. Darcy. Senator, we are currently evaluating the damages 
from that storm and looking to our FCC&E account for what might 
be available there to be able to repair that damage. The 
appropriations bill for Sandy money is pretty specific that the 
damages have to have been caused by Superstorm Sandy, so I am 
not optimistic that we would be able to use those funds without 
some kind of legislative direction.
    Senator Carper. Good. Just one last quick question. In 
terms of the remaining funds from Superstorm Sandy that have 
not been obligated or used, would you just refresh my memory as 
to how much that is? I am thinking $5.4 billion, half of which 
has been used, half which has not been obligated, but I may be 
mistaken.
    General Bostick, do you know?
    General Bostick. We have used about a billion out of the 
five billion. Most of the larger projects are yet to come.
    Senator Carper. All right.
    General Bostick. They are authorized, but not constructed 
projects.
    Senator Carper. OK. OK.
    Well, let's continue to have this conversation. Thank you 
very much. Thanks for joining us today. And thank you both for 
your service. Good to see you.
    Ms. Darcy. Thank you.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you, 
Secretary Darcy, so much for your service and being here with 
us today. We appreciate you.
    Arkansas and neighboring States in our area share 
underground aquifers, and this is really of tremendous 
importance in the sense of homes, factories, farms, all of 
those depend on these aquifers. Sadly, after centuries of use, 
they are being depleted. The problem is your folks, other 
people tell us that when they get to a certain level they start 
to collapse and then they won't regenerate themselves under any 
circumstances. So we certainly don't want to get in that 
situation. In fact, I think that the Corps has described it as 
being catastrophic if that were to occur, with a multi-billion 
dollar negative impact. So the question is, what do we do about 
that?
    And, to your credit, the Corps has two great projects 
there, and all of this deals with water scarcity, which is a 
huge problem. When you ask futurists what is going to be the 
problem in the future, it is water and energy. Everybody agrees 
with that, I think. Again, the question is, how do you fund 
these projects? It has been a real problem. We spend about $200 
million between the State and the Feds in doing this. I guess 
the question is the path forward. And the problem is, they drag 
on, then the cost structure increases to the point it is hard 
to keep up with inflation.
    So I guess the question is, how do we finance things like 
that? We are in a situation how with WIFIA where existing 
public-private partnerships are helpful, but they just don't 
really help with these big projects like that. So what we would 
like to do is come up with another option, and I guess the 
question is, for you and really for the Committee going 
forward, do you have any advice? What can we do to make it such 
that these projects that we all agree are valuable, in the best 
interest of the public?
    And in these particular cases I think they are great 
demonstration projects as to what we need to be doing in other 
parts of the Country, again, to eliminate some of the problems 
that California has had, other States. As we look forward, I 
think that because of the fact that we have these unusual 
weather patterns and things, that it is going to become more 
and more of a problem.
    Ms. Darcy. Senator, I think one of the things we need to 
do, which was alluded to by some of the other members, as well 
as the Committee recognized 2 years ago, was that alternative 
financing is something that we need to take a serious look at 
and use our imagination, as well as looking to private capital 
markets to help with some of this financing. Because we are 
going to need that in order to sustain those kinds of projects, 
as well as some of our own infrastructure projects in addition.
    Senator Boozman. Right. And as far as these types of 
projects, that is something that you, as the Chairman, support?
    Ms. Darcy. These kinds of alternative financing projects? 
Yes.
    Senator Boozman. Well, alternative financing and then, 
again, these water scarcity projects. We are in a situation now 
where we are experiencing troubles that we haven't had in the 
past as far as significant, well, we have had these problems in 
the past. Again, the question of how do you actually deal with 
them.
    Ms. Darcy. Well, because they are water resources 
development projects, so they are ones that not only do we have 
to recognize what our responsibility is for floods, but also 
for not enough water.
    Senator Boozman. Right. Very good.
    General Bostick. And one of the things I would like to say 
on this is I think there hasn't been a real national dialog and 
direction that we have been given in the Corps or the Nation in 
how we want to address water scarcity and water supply and 
water distribution. These are generally not areas that the 
Corps is focused on, but it is a national issue, and there is 
no entity that is taking it on.
    So every State, such as yourself, is taking this on, and we 
have to decide whether we want to do it at a national level. In 
China they are moving 50,000 swimming pools a day from the 
south to the north in a gravity-fed channel over 1,800 
kilometers to take care of their water issues. I am not saying 
it is the right solution, but I am saying they and other 
countries are looking at us in trying to figure out what we are 
going to do. That is an example, Bayou Meto and Grand Prairie, 
but we have very few examples of what we are trying to do.
    Senator Boozman. And you are right, it is a good example. 
The other thing why it is natural for you all to come into 
play, I think, is, like in our case, this is a multi-State 
problem. It is something that you are going to have to have 
cooperation among the States, and nobody is better to kind of 
pull all that together, even though it is very, very difficult, 
particularly with water issues. But in the sense of preventing 
water issues, I think that the Corps is playing a big role, but 
probably needs to play a greater role.
    Thank you all, and thank you, sir, very much for your 
service. We very much appreciate you and all you represent.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boozman.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Assistant Secretary Darcy, we are now roughly three and a 
half years after Superstorm Sandy ravaged the northeast, and I 
know that the New York district is very committed to building 
the necessary flood protection along our coast, but we find 
ourselves now coming up on yet another hurricane season where 
large numbers of my constituents are left unprotected. In 
particular, the South Shore, Staten Island is expected to take 
several more years to complete, as is the Rockaway and Jamaica 
Bay in New York City Coastal Storm Reformulation Project.
    Now, while I understand these projects are very large, 
complex, and cannot be studied and designed overnight, are 
there statutory changes that could be made to help the Corps 
move more expeditiously through projects like these, which 
literally could mean the difference between life and death for 
millions of people in New York should another storm like Sandy 
hit our shores?
    And, related, we just heard Senator Carper ask you about 
why the money is not spent; and you know Congress, if the money 
is not spent, they spend it somewhere else. So that, of course, 
raised very serious red flags for me because these projects 
need to be completed.
    Ms. Darcy. Senator, I think your question is are there any 
impediments that we are finding that are keeping us from going 
more quickly, and I think the answer is no, but I am going to 
ask General Bostick if he has any additional views.
    General Bostick. These are just long-term planning efforts. 
We had some initial issues, I think, with real eState and 
rights and easeways and those sort of things, but generally the 
States are working with us to resolve those local issues and we 
are working with them to move the projects forward.
    Senator Gillibrand. OK. Is funding or resources an issue 
for why these projects move slowly? And, if so, should we 
create more opportunities to leverage financing from other 
sources or expedite priority projects to facilitate it? I mean, 
is there anything that is standing in the way of these projects 
getting done?
    General Bostick. I really have to come back to you on some 
of the specific details that the divisions and the districts 
may be facing. In general terms, they are not things that I 
believe we need from Congress in that we have the funding that 
we need.
    Senator Gillibrand. So I would like from both of you a 
letter to this Committee saying that you intend to use the 
funds that have been appropriated and authorized to do these 
projects, and that they take a long time and that you intend to 
do this because I want these funds to not be somehow targeted 
for other uses. And please address it to the full Committee.
    General Bostick. We will do that.
    Senator Gillibrand. Thank you.
    Assistant Secretary Darcy, as you know, the Army Corps is 
currently working on a dredge material management plan for the 
disposal of dredge materials into Long Island Sound. I share 
the concerns of many of my constituents who do not want to see 
the environmental quality of the Sound negatively impacted by 
the project. Long Island Sound is an estuary of national 
significance, and both the Federal and government of New York 
State have spent significant resources to clean up the polluted 
waters of the Sound.
    Specifically, I am extremely concerned that the Army Corps 
has not done a full enough evaluation of alternatives to open 
water dumping in the Sound. The New York State Department and 
Department of Environmental Conservation have both expressed 
concerns with the Corps approach, and I was disappointed by the 
Corps' refusal of New York State's request to extend the 
comment period to allow additional analysis by the State and 
other stakeholders.
    Will you commit to working with my office and New York 
State to ensure that the Army Corps will not propose disposal 
sites that in any way would negatively impact the environmental 
quality of the Sound? And as the mission of the Army Corps has 
evolved over the years to place a greater focus on 
environmental restoration, could you comment on whether the 
long-term environmental costs and benefits should be more fully 
factored into the analysis of the various options for where 
dredge material should be disposed?
    Ms. Darcy. Senator, the disposal of the dredge materials is 
something that we take very seriously, especially how it will 
impact the environment. One of the things we have been looking 
at much more in recent years is the beneficial use of dredge 
materials and how that can be used either for upland disposal 
or wetland creation or other kinds of things, as opposed to 
open water disposal or other things.
    So we are looking at it not only for an environmental 
benefit perspective, but also from a cost perspective as well. 
And we do consider all environmental laws when we make a 
determination as to what is the best disposal option for our 
dredge materials.
    Senator Gillibrand. OK. And then, last, I was very grateful 
that the Army Corps included funding in Fiscal Year 2017 budget 
for the design phase of the Cano Martin Pena environmental 
restoration project in San Juan, Puerto Rico. I visited the 
site with Senator Blumenthal in January 2015 and I can't stress 
enough how critical this project is for protecting public 
health for children who are literally wading in water that has 
not only refuse, but open sewage; and the risk to their health 
is so severe. So can you just provide me quickly with a status 
update on the project and what the Corps timeline is for 
preconstruction engineering and design phase?
    Ms. Darcy. Senator, I visited the project three times, it 
was one of the first places I visited when I first took this 
job, and was moved by what I believe our moral imperative is to 
make this project a reality. We have provided funding, as you 
say, in the 2016 work plan, as well as the 2017 budget for 
preconstruction engineering and design. The report is on its 
way to my office that I need to sign off on in order for this 
to go forward. I am expecting that within the month, so it is 
moving along.
    We have had a great cooperative relationship with ENLACE, 
who is the local sponsor on the ground in Puerto Rico, as well 
as the Commonwealth of Puerto Rico, and the Environmental 
Protection Agency, because there is the possibility of 
hazardous materials there and we have worked jointly with them 
in order to deal with that so that we can move this forward.
    Senator Gillibrand. Thank you.
    And thank you, Mr. Chairman. I am going to submit for the 
record one question about the Wallkill River in Orange County 
that you can submit by letter.
    Thank you, Mr. Chairman. Thank you, Ranking Member.
    Senator Inhofe. Thank you, Senator Gillibrand.
    Without any further Senators here, we will excuse our panel 
and thank both of you very much for staying with us and 
particularly the service that you have offered, General 
Bostick. It is exemplary.
    Ms. Darcy. Senator Inhofe, may I just indulge the Committee 
for 1 second? I want to thank General Bostick for his service. 
He has been at my side for the last 4 years of this journey, 
and I couldn't have asked for anyone with more integrity and 
more commitment to the program and projects of the Army Corps 
of Engineers, and his retirement is, in my view, a loss to the 
Army and the Country. Thank you.
    General Bostick. Thank you very much, Secretary Darcy.
    Senator Inhofe. I would agree with that.
    We are adjourned.
    [Whereupon, at 11:26 a.m. the committee was adjourned.]

                                 [all]
</pre></body></html>
